4

-—_

PO

  
        
       
 

IN THE . . OUNTY, NEBRASKA
THE STATE OF NEBRASKA, ) CASE NO. CR 18-1581
)
Plaintiff, )
vs. ) MOTION TO SUPPRESS
) STATEMENT
AUGUSTINE CAVITTE, ) #6
) Doug 2STRICF Cunt
Defendant. ) “AS County NEBRASKA
SEP 13 2018

   

  

JOHN M. ERIE

. 4 LERK Distpyn NO
COMES NOW the Defendant, Augustine Cavitte, by and through her-attdkaeygourr
Bethany Stensrud, moves the Court to suppress and exclude from use against her any
statements made by her on or about April 30, 2018, to Omaha police officers for the

following reasons:

1, That the statements of the Defendant were the fruits of a custodial
interrogation;

2. That the custodial interrogation occurred as a direct result of an unlawful
detention of the Defendant;

3. That the custodial interrogation occurred as a direct result of an unlawful
arrest of the Defendant;

4. That the statements are the fruits of an unlawful detention and arrest, the arrest
having been made without a warrant or without probable cause to believe that
the Defendant was in the commission or had committed a crime;

5. That such statements of the Defendant were not freely and voluntarily given;

6. That such statements of the Defendant were not knowingly, understandingly,
and intelligently made;

7, That such statements of the Defendant were given without her having been
informed of her rights contrary to law;

8, That such statements of the Defendant were made without a proper-knowing,
understanding, and intelligent waiver of her rights against compulsory self-
incrimination or her right to counsel;

9. That such statements of the Defendant were a result of words or actions on the

part of the Omaha Police Department that the police should have known were
reasonably likely to elicit an incriminatory response from the Defendant;

Append ik C

 
10. That such statements of the Defendant were not voluntary in that they were
the product of threats, coercion, deception, and/or inducements made by
members of the Omaha Police Department;

11. That such statements of the Defendant were obtained contrary to the
established law of the Fourth, Fifth, Sixth, and Fourteenth Amendments to the
Constitution of the United States and in violation of the Defendant’s rights
guaranteed by the. Constitutions of the United States and the State of
Nebraska.

WHEREFORE, the Defendant prays that the Court suppress and exclude from use
against him any and all evidence obtained by the State for the reason that such evidence
was obtained in violation of the rights of the Defendant as guaranteed by the Fourth,
Fifth, Sixth, and Fourteenth Amendments of the Constitution of the United States and
Article I, Sections 7, 11, and 12 of the Constitution of the State of Nebraska.

   

Augustine Cavitte, Defendant

By: |

  

any SNenaged ! 24679
Assistant Public Defender
Attorney for Defendant

NOTICE OF HEARING

YOU AND EACH OF YOU ARE HEREBY NOTIFIED that a hearing in the above-
mentioned matter has been set before the District Court at 9:30 p.m. the 9" day of
November, 2018, in Courtroom No. 414, on the Fifth Floor of the Douglas County
Courthouse before the Honorable Judge Thomas A Otepka.

CERTIFICATE OF SERVICE

The undersigned hereby certifies that a true copy of the above and forego} g Was
served on Jay Klimes, 100 Hall of Justice, Omaha, Nebraska, by hand delj ery, | this

13 day of September, 2018.

    

 

 
